TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Telephone Excise Tax Refund Program
                      Was Successfully Implemented for
                   Businesses; However, a Large Amount of
                   Overcollected Tax Has Gone Unclaimed



                                           April 24, 2008

                              Reference Number: 2008-30-091




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  April 24, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Telephone Excise Tax Refund Program Was
                               Successfully Implemented for Businesses; However, a Large Amount
                               of Overcollected Tax Has Gone Unclaimed (Audit # 200730036)

 This report presents the results of our review of the Telephone Excise Tax Refund (TETR)
 program for businesses. The overall objective was to determine whether the Internal Revenue
 Service (IRS) effectively implemented the TETR1 program for business filers.2 This audit was
 conducted due to a request from the Deputy Commissioner for Services and Enforcement.

 Impact on the Taxpayer
 The IRS estimated that between 13.9 million and 15.9 million business taxpayers would be
 eligible to claim the TETR. The IRS wanted to provide an easy process for taxpayers to make
 TETR claims, but at the same time it wanted to minimize the refunds in excess of taxes collected
 and discourage requests for overstated refunds. Based on the refund claims processed through



 1
   On May 25, 2006, the Department of the Treasury announced its concession in the legal dispute over the Federal
 excise tax on long-distance and bundled telephone service. The IRS also announced its decision to stop collecting
 the tax and to issue refunds of tax paid on long-distance telephone service over the past 3 years. This announcement
 came after several court decisions held that the excise tax the IRS was collecting on long-distance and bundled
 telephone service was inappropriate. The IRS implemented a major program for taxpayers to receive refunds for the
 portion of their excise taxes paid on these services.
 2
   Specifically, taxpayers filing U.S. Corporation Income Tax Return (Form 1120), U.S. Income Tax Return for an
 S Corporation (Form 1120S), U.S. Return of Partnership Income (Form 1065), and U.S. Income Tax Return for
 Estates and Trusts (Form 1041).
                   The Telephone Excise Tax Refund Program Was Successfully
                    Implemented for Businesses; However, a Large Amount of
                             Overcollected Tax Has Gone Unclaimed


November 24, 2007, we believe a significant amount of the telephone excise tax collected could
go unrefunded, and many taxpayers might still be eligible to file claims.

Synopsis
Overall, the IRS successfully planned and implemented the TETR program for businesses. Its
efforts included modifying existing forms and developing strategies to educate taxpayers
regarding the availability of the refunds. The IRS also developed methods and forms for
taxpayers to claim either (1) an estimated amount of TETR without having to incur the required
burden of obtaining substantial documentation from 41 months of telephone bills or (2) actual
amounts as documented on their telephone bills. Despite these efforts, much of the overcollected
tax might go unclaimed and unrefunded. As of November 24, 2007, only approximately
721,410 (5.6 percent) of the 12.8 million business taxpayers who had filed their returns had made
TETR claims. The refunds associated with these claims totaled only $876.6 million, or
17.5 percent of the $5 billion collected.
Although we were unable to determine why the number of taxpayers claiming the credit and the
total amount they claimed did not meet IRS estimations, we believe that the reasons might be
attributed to the following conditions: (1) businesses believed the amount of work and
associated fees outweighed the amount of the credit they would receive, (2) businesses were
concerned that they would be unable to provide the necessary records needed to support the
amount of the claim, and (3) businesses simply were not aware of the credit.
IRS efforts to create compliance screens for identifying overstated refund requests were
ambitious. These screens used selection criteria that generally increased in proportion to an
increase in the size of the business. However, the minimum selection criteria set for some
businesses in comparison to others were inconsistent and led to some inconsistent results. The
IRS employed two minimum selection criteria: one for relatively small businesses and another
for all others. However, the smaller businesses received larger minimum criteria (50 percent
larger) than the larger businesses. This resulted in large businesses being identified for
examination and having refunds frozen for claim amounts that would have been under minimum
criteria for much smaller businesses. Conversely, some claims made by smaller businesses that
were not examined would have been examined if the claims were filed by a larger business.
In a prior review of TETR claims made by individuals,3 the Treasury Inspector General for Tax
Administration found that many potentially erroneous claims went unchallenged by the IRS and
resulted in excessive refunds. We believe the criteria used to identify potentially egregious
individual claims were set too high. The IRS declined to adjust its criteria and declined to
scrutinize many of these claims due to limited Examination function resources. At the same

3
 Although Strong Efforts Were Made, a Significant Amount of the Telephone Excise Tax Overcollected From
Individual Taxpayers May Never Be Refunded (Reference Number 2007-30-178, dated September 26, 2007).
                                                                                                          2
                 The Telephone Excise Tax Refund Program Was Successfully
                  Implemented for Businesses; However, a Large Amount of
                           Overcollected Tax Has Gone Unclaimed


time, other resources set aside to review questionable business claims were underused. Shifting
resources from one operating division to another might have enabled the IRS to stop or recover
much of the TETR that appears to have gone out erroneously.

Recommendations
We recommended that the Director, Electronic Tax Administration and Refundable Credits,
survey tax preparers and business taxpayers who did not claim the TETR to determine why the
refunds were not claimed. We also recommended that the Director, Campus Compliance
Services, and the Director, Examination, make appropriate changes to the screening criteria for
claims on amended returns and analyze screening criteria before implementing the criteria for
future programs to ensure that they provide reasonable and consistent coverage. Lastly, we
recommended that the Deputy Commissioner for Services and Enforcement give consideration to
shifting resources from one operating division to another for future IRS projects or programs if
doing so could help the IRS optimize its effectiveness and achieve its mission.

Response
IRS management agreed with the recommendations presented in this report. Specifically, they
do not have sufficient resources to survey tax preparers and business taxpayers who did not
claim the TETR. However, because the TIGTA has limited Office of Management and Budget
authority to perform such a survey, the IRS solicited our help in conducting this survey. The IRS
is interested in any data regarding why presumably eligible businesses did not claim their TETR
refund. The IRS also agreed to examine the screening criteria currently used to review and select
for audit amended business returns with TETR requests. They are now in the process of
reviewing the criteria. Finally, the IRS pointed out that shifting resources from one operating
division to another is already part of the way in which the IRS conducts its strategic planning
process. Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret Begg, Assistant Inspector General for Audit (Small Business and Corporate Programs),
at (202) 622-8510.




                                                                                                  3
                        The Telephone Excise Tax Refund Program Was Successfully
                         Implemented for Businesses; However, a Large Amount of
                                  Overcollected Tax Has Gone Unclaimed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Overall, the Internal Revenue Service Successfully Planned
          and Implemented the Federal Telephone Excise Tax Refund
          Program for Businesses ....................................................................... Page 3
          Like Individual Taxpayers, a Significant Amount of the Telephone
          Excise Tax Owed to Business Taxpayers May Never Be Refunded ............Page 6
                    Recommendation 1:........................................................Page 7

          Efforts to Create Compliance Screens Were Ambitious,
          but Inconsistencies Exist...............................................................................Page 8
                    Recommendation 2:........................................................Page 9

          Resources Could Have Been More Effectively Applied
          to Collect Erroneous Telephone Excise Tax Refund Claims........................Page 9
                    Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
        The Telephone Excise Tax Refund Program Was Successfully
         Implemented for Businesses; However, a Large Amount of
                  Overcollected Tax Has Gone Unclaimed




                      Abbreviations

IRS             Internal Revenue Service
TETR            Telephone Excise Tax Refund
TIGTA           Treasury Inspector General for Tax Administration
                     The Telephone Excise Tax Refund Program Was Successfully
                      Implemented for Businesses; However, a Large Amount of
                               Overcollected Tax Has Gone Unclaimed




                                             Background

The telephone excise tax was first imposed in 1898 to fund the Spanish-American War.
Originally, the tax applied to all telephone use. Later, it was revised to apply to long-distance
calls on which call duration and distance were factored into the price. However, many
telecommunications companies made changes to their billing models, factoring only call duration
and not distance into their billing prices. As a result, these charges no longer met the
requirements of the tax code and should not have been subject to tax.1 Several businesses
litigated the taxability of these portions of the telephone excise tax and, after five circuit court
losses, the Department of the Treasury announced on May 25, 2006, that it was conceding the
legal dispute over the tax and that the Department of Justice would no longer pursue litigation.
The Internal Revenue Service (IRS) also announced its decision to stop collecting the tax. The
IRS then implemented a major program for taxpayers to receive refunds for the portion of their
telephone excise taxes paid on long-distance or bundled telephone service billed after
February 28, 2003, and before August 1, 2006, that did not meet the statutory taxability
requirements.
The Telephone Excise Tax Refund (TETR) was the most wide-reaching tax refund in the history
of the IRS, estimated to affect between 145 million and 165 million individual taxpayers and
between 13.9 million and 15.9 million business taxpayers.2 The IRS developed a process to
refund these monies in a timely manner and made the request process relatively easy for most
taxpayers. At the same time, it wanted to minimize the number of refunds in excess of taxes
collected and discourage requests for overstated refunds. The Treasury Inspector General for
Tax Administration (TIGTA) recently reported on the IRS’ efforts to administer the refund
program for individual taxpayers.3 This report discusses the IRS’ efforts to administer the refund
program for business taxpayers.
To request the TETR, businesses are required to complete Credit for Federal Telephone Excise
Tax Paid (Form 8913) and file it with their tax return. They can complete the form by using the
actual amount of refundable long-distance telephone excise taxes that they paid between March
2003 and July 2006 (41 months), or they have an option to use an estimation method developed
by the IRS.


1
  Five circuit court cases held that a telephonic communication for which there is a toll charge that varies with
elapsed transmission time and not distance (time-only service) is not taxable toll telephone service as defined in
Internal Revenue Code Section 4252(b)(1).
2
  This includes not only C-Corporations, S-Corporations, and Partnerships, but also non-profit filers, Government
entities, and businesses no longer in operation. Estates and Trusts were not included in the estimate.
3
  Although Strong Efforts Were Made, a Significant Amount of the Telephone Excise Tax Overcollected From
Individual Taxpayers May Never Be Refunded (Reference Number 2007-30-178, dated September 26, 2007).
                                                                                                             Page 1
                    The Telephone Excise Tax Refund Program Was Successfully
                     Implemented for Businesses; However, a Large Amount of
                              Overcollected Tax Has Gone Unclaimed


The estimation method was designed by the IRS to simplify the refund calculation and reduce
the burden on taxpayers by helping them avoid having to recover their old telephone records.
The estimation method requires businesses to compare only two telephone bills from Tax
Year 2006 (April and September) to determine the percentage of their telephone expenses
attributable to the excise tax on long distance. They must first figure the telephone tax as a
percentage of their April 2006 bill, which included the excise tax for both local and long-distance
telephone service, and their September 2006 telephone bill, which only included the tax on local
telephone service. The difference between these 2 percentages should be multiplied by the total
telephone expenses for the 41-month period. The refund is capped at 2 percent of telephone
expenses for businesses with 250 or fewer employees and 1 percent for large businesses with
more than 250 employees.
This review was performed at the IRS Campus4 in Ogden, Utah, during the period May through
November 2007 and included a review of tax information from returns filed and processed
nationwide, as well as an evaluation of information provided by the IRS TETR Working Group
headed by the Director, Earned Income and Health Coverage Tax Credits, Wage and Investment
Division. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




4
 Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                   The Telephone Excise Tax Refund Program Was Successfully
                    Implemented for Businesses; However, a Large Amount of
                             Overcollected Tax Has Gone Unclaimed




                                    Results of Review

Overall, the Internal Revenue Service Successfully Planned and
Implemented the Federal Telephone Excise Tax Refund Program for
Businesses

Major business tax forms and instructions were timely and accurately updated to
allow taxpayers to claim the TETR
The IRS added instructions and made appropriate changes to the business income tax forms that
included a specific line on each tax form to claim the credit. Revisions were made to the forms
and instructions for the U.S. Corporation Income Tax Return (Form 1120), the U.S. Income Tax
Return for an S Corporation (Form 1120S), the U.S. Return of Partnership Income (Form 1065),
and the U.S. Income Tax Return for Estates and Trusts (Form 1041).5 The IRS also created an
entirely new form with instructions, Form 8913, that helped businesses compute their TETR
refund using actual expenses or the estimation method.
We reviewed each of the new and revised forms and their related instructions and found that,
overall, the forms were properly and clearly composed and the associated instructions were
logically and accurately presented.
In preparation for processing these new and revised tax forms, the IRS also had to modify
processing procedures, instructions, and/or computer programming involving (1) the acceptance
of electronically filed returns with TETR claims, (2) data entry of TETR information from paper
returns to IRS computers, (3) the resolution of errors on the returns, and (4) filters to identify and
inform taxpayers of inappropriate claims. The IRS successfully accomplished these tasks.

The system for processing tax returns filed by partnerships was modified to allow
the issuance of refunds
All partnerships must file an annual information return, Form 1065, to report the income,
deductions, gains, losses, etc., from their operations, but they do not pay income tax. Instead, the
partnerships “pass through” any profits or losses to their partners. Each partner includes his or
her share of the partnership’s income or loss on his or her tax return. As a result, the IRS returns
processing systems were not designed to issue TETR refunds directly to partnerships. However,
to accommodate the TETR program, additional programming was designed and implemented


5
  The IRS also made changes to the Exempt Organization Business Income Tax Return (Form 990-T) and its
instructions, but they were not reviewed during this audit.
                                                                                                         Page 3
                       The Telephone Excise Tax Refund Program Was Successfully
                        Implemented for Businesses; However, a Large Amount of
                                 Overcollected Tax Has Gone Unclaimed


that enabled the processing system to recognize the Telephone Excise Tax credit and issue the
proper amount of refund directly to the partnership.6

The IRS developed detailed strategies to educate taxpayers regarding the TETR
provisions
The IRS developed an in-depth Telephone Excise Tax Communications Subgroup Summary
Strategy that outlined overall communications objectives, audiences, and key messages. Out of
this Strategy came an internal communications strategy, a comprehensive media strategy, and the
IRS Refund of Telephone Excise Tax Outreach Plan. Each strategy/plan had refined objectives,
messages, audiences, and steps to communicate those messages to the desired audience. These
documents were all consistent with the Summary Strategy and its objectives.
The IRS worked with a large number of external partners to disseminate information about the
TETR. Information regarding the TETR and how businesses can claim it is abundant on the
Internet. The public IRS web site (IRS.gov) home page had TETR information prominently
displayed with easy links that provide more information for businesses, tax-exempt entities, and
individuals. Detailed questions and answers for each of these groups were very informative. In
addition, our examination of various web sites found TETR references on newspaper web sites,
tax practitioner sites, and tax and finance sites. One site listed 16 news releases issued by the
IRS or the Department of the Treasury that were related to the TETR.

The estimation method developed by the IRS for businesses was reasonable and
reduced taxpayer burden
To help taxpayers avoid searching through their old telephone records to determine their refund
amount, the IRS developed a formula that most business organizations can use to compute their
refund. As stated in the Background section of this report, the IRS developed an estimation
method based on comparing the tax percentage of two different months--one in which the tax
was inappropriately charged and the other in which only the correct amount was assessed. The
difference between these 2 percentages was then multiplied by the total telephone expenses for
the 41 months stipulated from March 2003 through July 2006. The resulting amount could be
claimed for refund (after applying the appropriate cap if necessary). Prior to finalizing the
formula, the IRS received public input and discussed the matter with business organizations, the
Small Business Administration, and representatives from the tax-exempt community.
We were unable to determine the number of businesses that used the estimation method to figure
their refund rather than taking actual expenses. That information was not compiled by the IRS
and is not readily available through taxpayer files. However, we believe that the estimation
method was an efficient way of providing taxpayers with an alternative to identifying and
computing actual expenses and was effective in reducing taxpayer burden.

6
    Changes enabling refunds to be issued to filers of other business tax forms had previously been made.
                                                                                                            Page 4
                    The Telephone Excise Tax Refund Program Was Successfully
                     Implemented for Businesses; However, a Large Amount of
                              Overcollected Tax Has Gone Unclaimed


A processing problem existed but the IRS reacted quickly to mitigate its effects
The TIGTA developed computer programs to identify certain businesses claiming and receiving
the TETR and provided the output of those programs to tax examiners in one of the IRS’ Fraud
Detection Centers. These tax examiners identified a problem in the processing of claims
included on Forms 1065 resulting in erroneous refunds. The Fraud Detection Center informed
the IRS’ processing function, and the problem was immediately corrected. The IRS was able to
recover over $300,000 that had been erroneously refunded to taxpayers and avoided the further
issuance of similar erroneous refunds.

The IRS developed and implemented a TETR compliance strategy and plan
The IRS Management Strategy for the TETR program identified three key overall objectives that
included: (1) minimizing taxpayer and IRS burden associated with requesting, processing, and
paying the refund; (2) minimizing refunds in excess of taxes collected; and (3) discouraging
overstated refund requests. The IRS created and implemented a TETR compliance strategy and
plan that was designed to deter such inappropriate refund claims. This included creating
compliance screens that identify refund requests that appear to be statistically unlikely, then
freezing those refunds until the return can be audited.7
The compliance screens were based on an existing model. The selection criteria were
developed by the IRS and were based, in part, on historical telecommunication expenditures for
long-distance telephone service provided to businesses.
Because the IRS’ authority to recover TETR overpayments is limited, the IRS’ compliance
efforts focused on pre-refund screening and examination. Once identified for examination, the
IRS froze the refund, then sent the filer a notice requesting information to substantiate the TETR
requested. The IRS also developed a compliance process whereby these newly identified cases
could be worked effectively along with its normal work.
Our tests showed that the selection criteria implemented as part of the compliance screens
effectively identified the intended cases. We also determined that the refunds were appropriately
frozen on those cases until they could be audited. However, as discussed later in this report, the
formula developed to administer these selection criteria resulted in some inconsistencies
regarding which claims were scrutinized and which claims were processed without questions.




7
 In addition, the IRS included a process for identifying and investigating TETR claims that appeared to be
potentially fraudulent.
                                                                                                             Page 5
                    The Telephone Excise Tax Refund Program Was Successfully
                     Implemented for Businesses; However, a Large Amount of
                              Overcollected Tax Has Gone Unclaimed


Like Individual Taxpayers, a Significant Amount of the Telephone
Excise Tax Owed to Business Taxpayers May Never Be Refunded
The IRS estimated that between 13.9 million and 15.9 million business taxpayers would be
eligible to claim the TETR and approximately $5 billion were owed. As of
November 24, 2007, approximately 721,410 of the 12.8 million business taxpayers who filed
their returns made TETR claims. The telephone excise taxes associated with those claims totaled
only $876.6 million. This accounts for only 5.6 percent of the estimated number of businesses
that could have claimed the credit and only 17.5 percent of what was collected.8
Just as we reported for individual taxpayers, we believe a significant amount of the telephone
excise tax collected by the IRS from businesses might never be refunded. Because of the length
of time it took to obtain permission from the Office of Management and Budget to contact and
gather information from taxpayers, we were unable to determine why only a small portion of
taxpayers claimed the credit.9
Although we do not know the specific reasons why business taxpayers did not claim the refund,
we believe some general reasons were revealed in a survey of small businesses conducted by the
Padgett Foundation.10 The survey found that small businesses believed the amount of work and
associated fees outweighed the amount of the credit they would receive. It is likely that many
businesses assumed that the costs spent on locating telephone expense records or the additional
tax preparation involved in figuring the credit was not worth the gain received from claiming the
refund. They might have falsely assumed that they would also have to file amended returns to
reverse the expenses taken as deductions in prior years, resulting in additional tax preparation
expense. The only additional action taxpayers must take once they claim the credit is to claim
the TETR refund as income in the tax year received.
The survey also showed that taxpayers were concerned that they would not be able to provide the
necessary records needed to support the credit claim. It was in response to this type of concern
that the IRS developed the estimation formula. However, it is possible that taxpayers were not
fully aware that the estimation method was available to them and might have even believed that
using the estimation method was cost-prohibitive. In addition, the survey revealed that some
taxpayers simply were not aware of the credit. We were contacted by one certified public
accounting firm that admitted to overlooking the credit for many of its clients.



8
  The TETR numbers presented in this paragraph do not include the numbers associated with approximately
2,000 taxpayers who filed claims for TETR refunds in anticipation of the IRS’ reversal of their position. These
cases were worked separately by the IRS and the numbers were not readily available.
9
  Just after the scheduled completion date for fieldwork on our audit, we received Office of Management and Budget
permission to contact taxpayers to determine why they did not claim the TETR.
10
   Operated in conjunction with Padgett Business Services, a company with more than 400 locally owned and
operated franchises across the United States and Canada specializing in small business advice and consultation.
                                                                                                          Page 6
                 The Telephone Excise Tax Refund Program Was Successfully
                  Implemented for Businesses; However, a Large Amount of
                           Overcollected Tax Has Gone Unclaimed


Despite the IRS’ significant efforts to advise business taxpayers of the TETR program, it seems
that many businesses that would have qualified for the TETR failed to claim it. Many of these
taxpayers might still be eligible to file claims.
As part of the TETR program, the IRS designed a comprehensive communications and outreach
strategy that focused on building awareness, providing education, maximizing media reach, and
minimizing taxpayer burden. Additionally, external stakeholders were engaged throughout the
process.
This effort, combined with IRS’ prior experience in communicating tax law changes and
requirements to the taxpaying public, should have been an effective combination to communicate
the TETR program to all business taxpayers. However, considering the significantly wide
audience that the IRS was attempting to reach and the low number of taxpayers who actually
claimed the credit, we believe the IRS should determine whether its communication and outreach
strategies were effective or whether improvements should be made. For example, a survey of tax
preparation firms, certified public accountants, or taxpayers might help the IRS determine
whether the information was communicated effectively. By doing so, the IRS should be better
able to determine whether the responsibility for not filing fell on the businesses and their
preparers or whether the IRS needs to reevaluate its communication strategies in the future.

Recommendation
Recommendation 1: The Director, Electronic Tax Administration and Refundable Credits,
should survey tax preparers and business taxpayers who did not claim the TETR to determine
why the refunds were not claimed. Such a survey will help the IRS determine whether further
actions are necessary to administer the refunds to businesses, assess the effectiveness of its
communications strategies, and make appropriate changes for future outreach efforts. Because
the TIGTA now has limited Office of Management and Budget authority to perform such a
survey, we would be willing to work with the IRS to gather these data. If the results of the
survey warrant, the TETR Working Group should identify demographics that had relatively low
rates of claims and provide additional information to these business taxpayers on how they might
still claim the TETR.
       Management’s Response: The Commissioner, Wage and Investment Division,
       agreed with this recommendation, but indicated that the IRS does not have sufficient
       resources to implement a study of this nature at this time. However, because the TIGTA
       has limited Office of Management and Budget authority to perform such a survey, the
       IRS solicited our help in conducting this survey. The IRS is interested in any data
       regarding why presumably eligible businesses did not claim their TETR refund. The IRS
       will analyze the data gathered from the survey to determine trends and common reasons
       why the TETR wasn’t being claimed.



                                                                                          Page 7
                      The Telephone Excise Tax Refund Program Was Successfully
                       Implemented for Businesses; However, a Large Amount of
                                Overcollected Tax Has Gone Unclaimed


Efforts to Create Compliance Screens Were Ambitious, but
Inconsistencies Exist
As noted earlier in the report, the IRS Management Strategy for the TETR program identified
three key overall objectives. To assist in accomplishing these objectives, the IRS developed
compliance screens to identify potential TETR compliance issues for taxpayer claims that met its
selection criteria.
The compliance screens were based on an existing IRS model, and the selection criteria were
developed by the IRS using telecommunication industry data. The IRS identified the key
variables that are predictors of telephone usage, then added the complexity of accounting for the
size of the business relative to the refund claim amount. This enabled the IRS to set business
selection criteria in relation to the size of the business, which is generally defined by the amount
of gross receipts.11
The resulting criteria were a system of mathematical equations applied to an indicator (i.e.,
“applicable amount”) that reflected the size of the business. In general, a larger business would
be able to claim a greater amount of TETR without further scrutiny by the IRS. In addition, the
selection criteria were set to optimize compliance resources.
Overall, the compliance screens appeared to provide an effective method of identifying
questionable claims. However, we identified some inconsistencies in its application. IRS
management did not recognize these inconsistencies. As mentioned earlier, one of the main
tenets of the selection criteria is that they increase in proportion to an increase in the size of the
business. This appears to be a logical approach. However, some inconsistencies existed with the
criteria set by the IRS which appear counter to the tenet and caused inequities among businesses.
For example, the refund of a large business claiming a small TETR amount would be frozen and
examined, while a much smaller business could claim a larger TETR amount without the refund
being frozen and examined.
The IRS employed two different selection criteria: one for relatively small businesses and
another for all other businesses. However, under the established criteria, some large businesses
were identified for examination and had their refunds frozen for claim amounts that would not
have occurred for much smaller businesses.
We identified 367 TETR claims filed by large businesses meeting examination criteria12 that
would not have met the criteria had they been claimed by much smaller businesses. At the same
time, we identified 124 TETR claims filed by relatively small businesses that were not examined
but would have met the examination criteria had they been filed by larger businesses.



11
     When gross receipts equaled zero, total deductions defined the size of the business.
12
     As of November 26, 2007, we were informed the IRS examined 3,280 business returns claiming the TETR.
                                                                                                        Page 8
                    The Telephone Excise Tax Refund Program Was Successfully
                     Implemented for Businesses; However, a Large Amount of
                              Overcollected Tax Has Gone Unclaimed


Recommendation
Recommendation 2: The Director, Campus Compliance Services, and the Director,
Examination, should make appropriate changes to the screening criteria for claims on amended
returns and should analyze screening criteria before implementing them for future programs to
ensure that they provide reasonable and consistent coverage.
        Management’s Response: IRS management agreed with this recommendation. The
        Commissioner, Wage and Investment Division, agreed to examine the screening criteria
        currently used to review and select for audit amended business returns with TETR
        requests. The IRS is now in the process of reviewing the criteria. The IRS believes that
        because the selection criteria did not change during the entire 2007 and 2008 filing
        periods, similarly situated taxpayers received the same treatment, and the method of
        selecting egregious TETR requests for examination was both fair and appropriate.
        However, as noted, the IRS will reassess these criteria as they relate to amended business
        returns with TETR requests.
        Office of Audit Comment: We do not dispute the fact that similarly situated
        taxpayers received the same treatment. Our issue is with the treatment of dissimilar
        businesses. Allowing a relatively large TETR request for a small business and yet
        freezing a TETR request for the same or even smaller amount claimed by a much larger
        business does not seem logical. We encourage the IRS to address this issue in its
        reassessment of the screening criteria for amended tax returns.

Resources Could Have Been More Effectively Applied to Collect
Erroneous Telephone Excise Tax Refund Claims
During the prior TETR review, the TIGTA believed the selection criteria used to identify
potentially egregious individual claims were set too high and found that highly suspicious claims
made by individuals often went unchallenged by the IRS. The IRS declined to adjust its
selection criteria and declined to scrutinize many of what appeared to be erroneous claims, due to
limited Examination function resources. As a result, the TIGTA projected that more than
52,000 taxpayers claimed highly suspicious TETR claims amounting to almost $47 million.13
At the same time, other resources set aside to review questionable business claims were
underused. The IRS estimated and prepared to examine more than 8,700 business returns. As of
November 26, 2007, the IRS had selected only 3,280 business returns (38 percent) for
examination. Shifting resources from one operating division to another might have enabled the


13
  Calculated as follows: 52,360 taxpayers included in our analysis of questionable cases not examined by the IRS
multiplied by the maximum standard amount of $60 = $3,141,600 (which most likely should have been claimed).
These taxpayers actually claimed $49,896,486. Thus, $49,896,486 - $3,141,600 = $46,754,886.
                                                                                                          Page 9
                 The Telephone Excise Tax Refund Program Was Successfully
                  Implemented for Businesses; However, a Large Amount of
                           Overcollected Tax Has Gone Unclaimed


IRS to stop or recoup much of the TETR that appears to have gone out erroneously to individual
taxpayers.
During the IRS reorganization, operating divisions were created to serve customers with similar
needs, which resulted in four primary operating divisions (Wage and Investment Division, Large
and Mid-Size Business Division, Small Business/Self-Employed Division, and Tax Exempt and
Government Entities Division). We recognize that shifting resources from one division to
another might rarely be done. However, in this circumstance (i.e., the claims are somewhat
generic because both individuals and businesses file for the TETR using Form 8913 and skilled
examiners were underused), we believe the IRS could have considered transferring resources and
services across division boundaries to optimize its compliance resources. Redirection of
resources would have been helpful because the TETR issue became very high profile, and the
IRS made a great deal of effort to prevent the claiming and subsequent refunding of
inappropriate credit amounts, including vocalized and written warnings.
At the direction of the IRS Deputy Commissioners, the IRS established a TETR Compliance
Review Council designed in part to maintain real-time monitoring and enable weekly
adjustments to the TETR examination plan. The Council included a representative from each
operating division, and its objective was to ensure that the preliminary plan was effective and the
best cases were being worked. The IRS had this control in place to respond to emerging
examination issues and make changes to the initial strategies. We believe that this Council
should have recognized a needed change in strategy and considered additional options including
the transfer of resources.

Recommendation
Recommendation 3: The Deputy Commissioner for Services and Enforcement should
consider shifting resources from one operating division to another for future IRS projects or
programs if it could help the IRS optimize its effectiveness and achieve its mission.
       Management’s Response: IRS management agreed with this recommendation. The
       Commissioner, Wage and Investment Division, pointed out that shifting resources from
       one operating division to another is already part of the way in which the IRS conducts its
       strategic planning process and will consider this for future projects or programs. The IRS
       considered a number of factors in constructing the TETR examination plan and
       concluded that the allocation of audit resources was appropriate and should not be
       modified to shift efforts away from other productive work to the TETR. Throughout the
       filing season, the IRS monitored the workload of examiners handling TETR cases and,
       when deciding how to apportion work, took into consideration a balanced coverage
       approach and the business unit’s overall work plan for the fiscal year. The IRS decided
       to continue examining business returns with multiple issues rather than moving business
       examination resources to examine single-issue TETR requests from individuals.

                                                                                           Page 10
         The Telephone Excise Tax Refund Program Was Successfully
          Implemented for Businesses; However, a Large Amount of
                   Overcollected Tax Has Gone Unclaimed


Office of Audit Comment: We recognize that the IRS decided to continue examining
business returns rather than moving business examination resources to examine
single-issue TETR requests for individuals. We disagree with that decision, particularly
because the number of business TETR claims meeting examination selection criteria
were well below those planned for, and the TIGTA had made the IRS aware of
significant noncompliance with regard to individual TETR claims. However, because the
IRS has agreed to give consideration to shifting resources from one operating division to
another in the future and is even now considering this during its strategic planning
process, we do not disagree with the IRS’ stated corrective action.




                                                                                 Page 11
                    The Telephone Excise Tax Refund Program Was Successfully
                     Implemented for Businesses; However, a Large Amount of
                              Overcollected Tax Has Gone Unclaimed


                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine whether the IRS effectively implemented the TETR
program for business filers, specifically taxpayers filing U.S. Corporation Income Tax Return
(Form 1120), U.S. Income Tax Return for an S Corporation (Form 1120S), U.S. Return of
Partnership Income (Form 1065), and U.S. Income Tax Return for Estates and Trusts
(Form 1041). To accomplish this objective, we:
I.      Determined the adequacy of the internal controls in place to administer the TETR
        program for businesses by completing a risk matrix and designing audit tests to address
        the control weaknesses identified.
II.     Determined whether the IRS had properly modified computer programs as they related to
        the telephone excise tax refund on business returns.
        A. Determined how the credit was treated on the various tax forms (primarily determined
           whether the IRS provided a separate line for taking the credit or whether it was
           allocated to a miscellaneous refundable credit line), reviewed changes made to the
           forms and the related instructions, and analyzed the estimation method for basis and
           reasonableness.
        B. Selected a statistically valid sample of 150 (from a population of 436,332) business
           tax returns claiming the telephone excise tax credit and ensured that the credits were
           properly posting to the Master File,1 and ensured that claimed amounts were properly
           supported. The data were extracted from the TIGTA Data Center Warehouse,2 and
           we selected the sample using a 95 percent confidence level, 10 percent expected error
           rate, and 5 percent precision.3
III.    Determined whether the TETR program statistics compiled by the IRS were accurate.
        A. Obtained IRS estimates of the number of businesses projected to claim the TETRs
           and the IRS’ anticipated amount of refund dollars claimed.




1
  The Master File is the IRS database that stores various types of taxpayer account information. This database
contains individual, business, and employee plans and exempt organization data.
2
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the TIGTA for the purpose of analyzing data for ongoing audits.
3
  The returns were visually reviewed electronically using IRS databases. No actual returns were pulled for review.
The return data extracted were verified by matching it to the return information maintained on IRS databases.
                                                                                                          Page 12
                    The Telephone Excise Tax Refund Program Was Successfully
                     Implemented for Businesses; However, a Large Amount of
                              Overcollected Tax Has Gone Unclaimed


        B. Obtained IRS data showing the actual number of taxpayers claiming the credit and
           also the amount of credits claimed (excise taxes and interest amounts). We also
           determined the accuracy of the IRS data by comparing statistics to the data available
           on the TIGTA Data Center Warehouse and resolved substantial differences.
        C. Compared IRS estimates to the actual number and amount of TETR claims. We
           obtained explanations of the differences from the IRS and determined whether it has
           any plans to study and address the issue of substantially fewer taxpayers claiming the
           credit than expected.
IV.     Determined the efforts made by the Compliance function to deter and prevent excessive
        TETR claims.
        A. Obtained examination selection criteria and determined whether they were
           reasonable.
        B. Judgmentally sampled4 and reviewed 282 business tax returns claiming the telephone
           excise tax credit and determined whether the examination criteria were appropriately
           applied. The sample data were extracted from the TIGTA Data Center Warehouse.5
        C. Determined the reasons taxpayers claimed excessive amounts of the TETR by
           interviewing revenue agents and their managers that were involved with the
           Examination of TETR cases.
V.      Determined the efforts made by the Criminal Investigation Division to prevent fraudulent
        TETR claims.
        A. Obtained the Criminal Investigation Division’s criteria for identifying
           taxpayers/preparers to investigate.
        B. Obtained the number of taxpayers/preparers under investigation by the Criminal
           Investigation Division.
        C. Analyzed databases of taxpayers to determine whether suspicious claims exist,
           focusing on large dollar claims, common preparers, etc.




4
  Judgmental samples were selected because they provided the most efficient method of testing examination criteria
and because the test results would not be projected.
5
  The returns were reviewed electronically using IRS databases. No actual returns were pulled for review. The
return data extracted were verified by matching it to the return information maintained on IRS databases.
                                                                                                         Page 13
                The Telephone Excise Tax Refund Program Was Successfully
                 Implemented for Businesses; However, a Large Amount of
                          Overcollected Tax Has Gone Unclaimed


                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Bill R. Russell, Lead Auditor
Douglas C. Barneck, Senior Auditor
Roy E. Thompson, Senior Auditor




                                                                                      Page 14
                The Telephone Excise Tax Refund Program Was Successfully
                 Implemented for Businesses; However, a Large Amount of
                          Overcollected Tax Has Gone Unclaimed


                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 15
    The Telephone Excise Tax Refund Program Was Successfully
     Implemented for Businesses; However, a Large Amount of
              Overcollected Tax Has Gone Unclaimed


                                                  Appendix IV

Management’s Response to the Draft Report




                                                        Page 16
The Telephone Excise Tax Refund Program Was Successfully
 Implemented for Businesses; However, a Large Amount of
          Overcollected Tax Has Gone Unclaimed




                                                    Page 17
The Telephone Excise Tax Refund Program Was Successfully
 Implemented for Businesses; However, a Large Amount of
          Overcollected Tax Has Gone Unclaimed




                                                    Page 18
The Telephone Excise Tax Refund Program Was Successfully
 Implemented for Businesses; However, a Large Amount of
          Overcollected Tax Has Gone Unclaimed




                                                    Page 19
The Telephone Excise Tax Refund Program Was Successfully
 Implemented for Businesses; However, a Large Amount of
          Overcollected Tax Has Gone Unclaimed




                                                    Page 20
The Telephone Excise Tax Refund Program Was Successfully
 Implemented for Businesses; However, a Large Amount of
          Overcollected Tax Has Gone Unclaimed




                                                    Page 21
The Telephone Excise Tax Refund Program Was Successfully
 Implemented for Businesses; However, a Large Amount of
          Overcollected Tax Has Gone Unclaimed




                                                    Page 22
